           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




  PERFORMANCE INDICATOR AUDIT:
  HEARINGS AND APPEALS PROCESS


   January 2006    A-15-05-15113




 AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
MEMORANDUM

Date:   January 24, 2006                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)



        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the Social
        Security Administration’s performance indicators established to comply with the
        Government Performance and Results Act. The attached final report presents the
        results of four of the performance indicators PwC reviewed. For the performance
        indicators included in this audit, PwC’s objectives were to:
        •   Assess the effectiveness of internal controls and test critical controls over the data
            generation, calculation, and reporting processes for the specific performance
            indicator.
        •   Assess the overall reliability of the performance indicator’s computer processed
            data. Data are reliable when they are complete, accurate, consistent and are not
            subject to inappropriate alteration.
        •   Test the accuracy of results presented and disclosed in the Fiscal Year 2004
            Performance and Accountability Report.
        •   Assess if the performance indicator provides a meaningful measurement of the
            program it measures and the achievement of its stated objective.

        This report contains the results of the audit for the following indicators:
        • Number of appellate actions processed.
        •   Number of SSA hearings cases processed per workyear.
        •   Number of SSA hearings pending.
        •   Hearings decision accuracy rate.
Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-
9700.




                                                S
                                                Patrick P. O’Carroll, Jr.

Attachment
MEMORANDUM

Date:     January 17, 2006

To:       Inspector General

From:     PricewaterhouseCoopers LLP

Subject: Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)

OBJECTIVE
The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

          1. Assess the effectiveness of internal controls and test critical controls over the
             data generation, calculation, and reporting processes for the specific
             performance indicator.

          2. Assess the overall reliability of the performance indicator’s computer
             processed data. Data are reliable when they are complete, accurate,
             consistent and are not subject to inappropriate alteration.4

          3. Test the accuracy of results presented and disclosed in the Fiscal Year (FY)
             2004 Performance and Accountability Report (PAR).

          4. Assess if the performance indicator provides a meaningful measurement of
             the program it measures and the achievement of its stated objective.


1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
    GAO-03-273G, Assessing Reliability of Computer Processed Data, October 2002, p. 3.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                            1
BACKGROUND
We audited the following performance indicators as stated in the SSA FY 2004 PAR:

                Performance Indicator                   FY 2004 Goal        FY 2004 Reported
                                                                                 Results
    Number of Appellate Actions Processed                   996,500             1,019,007
    Number of SSA Hearings Cases
                                                              105                   100.2
    Processed per Workyear (PPWY)
    Number of SSA Hearings Pending                          586,000               635,601
                                                                                        *
    Hearings Decision Accuracy Rate                          90%                   90%

          *The performance data shown for FY 2004 are estimated. Actual data was not available until
          December 2005. Social Security Administration Performance and Accountability Report
          Fiscal Year 2004, p. 92.

SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI)
and Supplemental Security Income (SSI) programs. The OASI program, also referred
to as Retirement and Survivors Insurance (RSI), is authorized by Title II of the Social
Security Act and provides benefits for eligible workers and for eligible members of their
families and survivors.5 The DI program, also authorized by Title II of the Social
Security Act, provides income for eligible workers who have qualifying disabilities and
for eligible members of their families before those workers reach retirement age.6 The
SSI Program, authorized by Title XVI of the Social Security Act, was designed as a
needs-based program to provide or supplement the income of aged, blind, and/or
disabled individuals with limited income and resources. 7

To determine eligibility for both Title II and Title XVI programs, applicants must first file a
claim with SSA. This is typically accomplished through an appointment or walk-in visit
to one of SSA’s approximately 1,300 field offices (FO). Interviews with the applicants
are conducted by FO personnel via the telephone or in person to determine the
applicants’ nonmedical eligibility. If the applicants are filing for benefits based on
disability, basic medical information concerning the disability, medical treatments, and
identification of treating sources is obtained.




5
    The Social Security Act, §§ 201-234, 42 U.S.C. §§ 401-434.
6
    Id.
7
    The Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.



Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                              2
After the applicants submit a claim, they will receive an initial determination of benefits.
If a claimant disagrees with the initial determination, he/she can appeal within 60 days.
The SSA appeals program provides four levels of appeal for a claimant.8 The four
levels of appeal are:

      •   Reconsideration;
      •   Hearing;
      •   Appeals Council (AC) Review; and,
      •   Lawsuit in Federal District Court.

Reconsideration
The first level of appeal is a reconsideration, in which a complete review of the claim is
completed by an SSA employee who did not take part in the initial decision process. All
of the evidence initially submitted by the claimant, and any new evidence, is re-
evaluated during the reconsideration process. Upon receiving the reconsideration
decision, the claimant may request a hearing if he/she disagrees with the decision.

Hearing
The second level of appeal is a hearing, which is conducted by an Administrative Law
Judge (ALJ) who is independent of both the initial determination and the reconsideration
decision. The ALJ reviews all information related to the claim and makes the hearing
decision.9 If the claimant disagrees with an ALJ’s hearing decision, the claimant may
request an AC review.

AC Review
The AC evaluates all requests for review, but can deny a request if it believes the
hearing decision was correct. If the AC grants the request for review, it will either
complete the review or return it to an ALJ for further review. If the claimant disagrees
with the review decision or if the AC decides not to review the case, the claimant may
file a lawsuit in a Federal District Court.

Lawsuit in Federal District Court
The Federal District Court may remand the court case to SSA’s Commissioner for
further consideration or dismiss the case. If remanded to the Commissioner, the AC,
acting on behalf of the Commissioner, can make a decision or remand the case to an
ALJ to make a decision.

(For additional details of the appeals process, refer to the flowcharts in Appendix C.)


8
    The Social Security Act, §§ 205 and 1631, 42 U.S.C. §§ 405 and 1383.
9
  All hearing data is processed through the Case Processing and Management System (CPMS) and the
Hearing Office Tracking System (HOTS). During FY 2004, CPMS replaced HOTS as the tracking system
for the SSA hearings workload (HOTS will continue to track Medicare cases). All hearing offices were
converted to CPMS as of August 2004.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                          3
RESULTS OF REVIEW
For one or more of the indicators included in this report we identified:

     •       Insufficient documentation supporting the process and controls to create,
             monitor, and report the results of the performance indicators;
     •       SSA employees with excessive system access rights to the datasets used to
             calculate the results of the performance indicators;
     •       Control weaknesses within the applications that impact the results of the
             performance indicators;
     •       Issues with the accuracy and presentation of information reported in the PAR;
             and
     •       Inconsistent retention of detailed data used to calculate the performance
             indicator results.

Number of Appellate Actions Processed10

Indicator Background

“Number of appellate actions processed” is the summary count of the following
appellate actions:

         •    Reconsiderations;
         •    AC reviews; and,
         •    Court cases and court remands from Federal District Courts.

Although part of the appeals process, hearings are not included in the count of appellate
actions, but are included in the performance indicator, “Number of SSA Hearings
Processed.”

Reconsiderations
Reconsiderations accounted for approximately 87.5 percent of appellate actions
processed. When a request for reconsideration is filed, the request is entered into the
appropriate application, which varies depending on the type of claim that is being
appealed (i.e. RSI, DI, or SSI).

RSI reconsideration requests are generally entered into the Processing Center Action
Control System (PCACS), but can also be processed through the Recovery of
Overpayments, Accounting and Reporting (ROAR) application for reconsideration
requests related to overpayments. The PCACS reconsideration data are uploaded into
the Process Center Management Information system (PCMI), which generates a report

10
  Subsequent to our fieldwork, SSA informed us that the performance indicator, "Number of Appellate
Actions Processed" was eliminated as a performance measure in the Final FY 2006 Annual Performance
Plan.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                         4
of processed reconsiderations. The ROAR application generates the OC210 report,
which includes a count of reconsiderations that have been input into ROAR.

Most DI and SSI disability reconsideration requests are processed by Disability
Determination Services (DDS) in each State. The data are entered through the Levy
application and is automatically transferred to the Disability Operational Datastore
(DIODS). The count of processed DI reconsiderations is reported on the State Agency
Operations Report (SAOR), which is generated from DIODS. DI and SSI disability
reconsiderations can also be processed at the Federal DDS (FDDS) through the FDDS
Case Tracking System (FDDS CTS), and through PCACS and ROAR as described
previously.

SSI nondisability reconsideration requests are entered through the Modernized SSI
Claims System (MSSICS). The data are stored in the Title XVI Operational Datastore
(TXVI ODS), which then provides the data to the Integrated Work Measurement System
(IWMS). The count of processed SSI reconsiderations is reported on the Field Counts
spreadsheet, which is an output from IWMS.

AC Reviews
AC reviews accounted for approximately 9.5 percent of appellate actions processed.
AC reviews are tracked in the Appeals Council Automated Processing System
(ACAPS). Each month, the count of processed AC reviews is reported in the Monthly
Office of Appellate Operations Disposition report generated from ACAPS.

Court Cases and Court Remands
Court cases and court remands accounted for approximately 3 percent of appellate
actions processed. Both are tracked in the Litigation Overview Tracking System
(LOTS). Each month, the count of processed court cases and court remands is
reported in the Workload Production report generated from LOTS.

All appellate actions processed are totaled manually on a worksheet from the
supporting documentation provided by each component.

Performance Indicator Calculation

                                               Reconsiderations
    Number of Appellate Actions           =    + AC reviews
           Processed                           + new court cases
                                               + court remands.




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)              5
Findings

Internal Controls and Data Reliability

We found the policies and procedures related to the formal process to capture, store
and calculate the results of the performance indicator were not adequate. The
documentation did not accurately describe the process in place during FY 2004 and all
components of the indicator calculation were not included. Office of Management and
Budget (OMB) Circular A-123, Management Accountability and Control, requires,
“…documentation for transactions, management controls, and other significant events
must be clear and readily available for examination.”11 Formally documented change
control policies and procedures for the ACAPS and LOTS applications had not been
developed. This results in a greater risk of unauthorized changes being made to the
ACAPS and LOTS applications. The National Institute of Standards and Technology
(NIST) guidance states, "An effective agency configuration management and control
policy and associated procedures are essential to ensure adequate consideration of the
potential security impacts due to specific changes to an information system or its
surrounding environment."12

ACAPS and LOTS Application Controls Issues
We found the following application issues for the ACAPS and LOTS applications:
  1. User ID and Password settings were inadequate. Passwords were only required
      to be three characters in length, were allowed to be the same as the user ID, and
      user IDs and passwords were stored in a nonencrypted file within the
      applications. Additionally, there was no user ID lockout after invalid attempts to
      sign-on to the applications. This could have allowed unauthorized users to
      repeatedly attempt to log into the applications.
  2. Security incident reports and error logs were not generated by the applications or
      monitored by management. As a result, security violations and data
      errors/irregularities may have occurred without management detection or
      investigation.

Specifically for ACAPS we found the following application issues:
  1. Control logs to show the complete and accurate transfer of data between the
       CPMS and ACAPS applications were not created. This increased the risk that
       case data was not transferred completely and appropriately.
  2. We found that duplicate cases could be created in ACAPS if all identifying fields
       were not present when inputting the case. This could create duplicate counts of
       AC reviews.



11
     OMB Circular A-123, Appendix II, Establishing Management Controls, June 21, 1995.
12
  NIST 800-64: Security Considerations in the Information System Development Life Cycle,
Section 2.3.4.1, p. 23.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                  6
Specifically for LOTS we found the following application issues:
   1. Three individuals had access within LOTS that were not consistent with their job
       functions. The level of access would have allowed them to inappropriately
       access all of the cases in LOTS.
   2. Social Security numbers (SSN) could be entered with less than 9 digits.
   3. LOTS does not have an audit trail that tracks user activities, date, and time of
       transactions entered into the application.
   4. Cases that are entered into the LOTS application with an incorrect “case type”
       (such as Court Cases and Court Remands) must be detected within the same
       month that the case was created in LOTS or the case will be counted as a
       disposition, even though a disposition for the case has not been finalized.

In addition, we identified 24 security and compliance issues in our review of the
Windows 2000 Operating System on which the ACAPS application resides. Five of the
conditions were contrary to the requirements of the SSA Windows 2000 Risk Model and
the other 19 conditions were contrary to existing Government guidelines from NIST and
the Defense Information Systems Agency (DISA) Windows 2000 Security Checklist,
version 3.1.11.

Data Reliability
We were unable to confirm that data submitted as appellate actions processed were, in
fact, processed for three data sources included in the calculation of this performance
indicator (FDDS CTS, ACAPS, and the OC210 report). For FDDS CTS and ACAPS,
PwC was unable to trace the counts in the application reports to the corresponding
spreadsheets used in the reporting of the performance indicator. Additionally, the
OC210 report contained the number of reconsiderations input to the ROAR application,
not the processed count as stated in the indicator title.

We tested the datasets used to calculate the indicator and found that six PCACS, five
IWMS, and seven ROAR programmers had the “All” access designation to these
datasets. This level of access allows users to create, delete and modify any of the data
contained within the datasets we reviewed. This level of access prevents SSA from
ensuring the integrity of this production data. OMB Circular A-130 requires agencies to
implement the practice of least privilege whereby user access is restricted to the
minimum necessary to perform his or her job; and enforce a separation of duties so that
steps in a critical function are divided among different individuals.13 It also emphasizes
the importance of management controls – such as individual accountability
requirements, separation of duties enforced by access controls, and limitations on the
processing privileges of individuals – to prevent and detect inappropriate or
unauthorized activities.14

13
  OMB Circular A-130, Management of Federal Information Resources, Appendix III, Security of Federal
Automated Information Resources.
14
   SSA is currently implementing the Standardized Security Profile Project to address the principle of
“least privileged access” for users with access to mainframe datasets.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                                7
The detailed data used to calculate this indicator were not archived and maintained for
all of the data sources. SSA management stated that recreating the data for this audit
was not considered to be cost effective; therefore, we were unable to recalculate the
results of this performance indicator as reported in the PAR.

As a result of these issues, PwC was unable to validate the accuracy of the reported
indicator results and does not consider the data used to calculate this indicator to be
reliable.

Accuracy of PAR Presentation and Disclosure

Documentation in the FY 2004 PAR related to this indicator was inaccurate, as
indicated in the following observations:
    1. Several data sources used in the calculation of the indicator were not listed in the
       PAR, including: LOTS, ROAR, PCACS, PCMI, DIODS, FDDS CTS and IWMS.
    2. The Cost Analysis System (CAS) was listed as a data source in the PAR, but it
       was not used in the indicator calculation.
    3. The title “Number of Appellate Actions Processed” was misleading as SSA was
       not including the count of processed hearings as part of the appellate actions
       processed.

Performance Indicator Meaningfulness

Although part of the appellate process, the count of processed hearings was not
included in the “Number of Appellate Actions Processed.” Processed hearings would
have represented a portion of the total appellate actions processed had it been
included. The inclusion of hearings would reflect the total number of appellate actions
processed.

Number of SSA Hearings Cases Processed per Workyear (PPWY)

Indicator Background

Employees in the Division of Cost Analysis (DCA) and the Division of Budget and
Financial Management at the Office of Hearings and Appeals (OHA) are responsible for
calculating the number of SSA hearings cases processed per workyear.

When a claimant requests a hearing, the case is processed through the Case
Processing and Management System (CPMS) and the Hearing Office Tracking System
(HOTS). During FY 2004, CPMS replaced HOTS as the tracking system for the SSA
hearings workload (HOTS will continue to track Medicare cases, which were not
included in this indicator). All Hearing Offices (HO) were converted to CPMS as of
August 2004.




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                 8
The numerator in the calculation of this performance indicator was the number of SSA
hearings cases processed during FY 2004, as reported on the Monthly Activity Report
(MAR) generated from CPMS. This number is the sum of all hearings cases with a
disposition date recorded in CPMS, and is entered into the Electronic CAS spreadsheet.

The denominator of this indicator was the number of direct workyears expended by
OHA employees. The denominator is calculated using the following formula:

    Direct                (Regular + Overtime) – (Leave + Holidays + Training + Travel)
                     =
   Workyears                                 Work Hours in a Year

SSA defines work hours in a year as 2080 hours (40 hours in a week x 52 weeks in a
year). However, for the overtime figure used in the denominator calculation, work hours
in a year was a calculated figure using data from the Payroll Analysis and Recap Report
(PARR) generated from the Payroll Operational Datastore (Payroll ODS). SSA uses a
separate divisor for overtime because it contributes to total time differently than regular
hours. Unlike regular hours, it is considered to be completely work time, with no
associated leave hours. The calculation converts the overtime to the equivalent regular
time to properly compute direct workyears.

The following inputs for the Direct Workyears calculation are entered into the PPWY
Calculation spreadsheet:

   •   Regular and Overtime: Time worked by OHA employees is recorded in the
       Mainframe Time and Attendance System (MTAS) and automatically transferred
       to the Time and Attendance Management Information System (TAMIS) at the
       end of each pay period. Regular and overtime hours are reported on the Time
       and Attendance Report generated by TAMIS.
   •   Leave: Leave hours taken by OHA employees are recorded in MTAS and
       automatically transferred to the Payroll ODS. Leave hours used in the
       calculation are reported on the PARR.
   •   Holidays: The number of official SSA paid holidays is used for this input.
   •   Training: Time spent in training is tracked at the HO and Regional Office (RO)
       levels, by training forms, sign-in sheets and employee reporting. The HO sends
       the training information to the RO, who then sends this information to OHA.
   •   Travel: The amount of time spent traveling by ALJs is estimated using the
       following formula:

              Travel Time = [1.1 X # workdays in a month X (# of ALJs - 1) + 1.1 X #
                             workdays in a month X (# of ALJs ) X .1]/2080

       The formula is based on the assumption that 10 percent of a judge’s time is
       spent traveling. The Biweekly Staffing Report gives the number of ALJs, which is



Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                 9
         then reduced by one because the Chief ALJ, who manages hearing operations,
         does not travel.

After all components of the indicator are entered, formulas in the PPWY Calculation
spreadsheet calculate the direct workyears. The direct workyears are entered into an
Electronic CAS spreadsheet, and the final number of SSA hearings cases processed
per workyear is calculated. The assigned DCA employee inputs the Electronic CAS
spreadsheet into CAS, which produces the Pre-Input Cost Analysis (PICA) report. The
indicator figures are taken from the PICA and the result for the number of SSA hearings
cases processed per workyear is reported on the OHA PPWY spreadsheet.


Performance Indicator Calculation


     SSA Hearings Cases Processed                  Number of SSA hearings cases processed
                                            =
         per Workyear (PPWY)                                  Direct Workyears

Findings

Internal Controls and Data Reliability

Source documentation did not reconcile to the PPWY Calculation spreadsheet used in
the indicator calculation in the following instances:
   1. There were seven instances where OHA did not receive the training reports from
       ROs. This resulted in the amount of time spent on training being inaccurate.
   2. There were two instances where the total number of ALJs entered did not match
       the number noted on the Biweekly Staffing Report. This resulted in the estimated
       amount of time judges spent traveling (as used in the final calculation of the
       indicator result) being inaccurate.

We tested the datasets used to calculate the indicator and found that one CPMS, one
TAMIS, and one CAS programmer had the “All” access designation to these datasets.
This level of access allows users to create, delete and modify any of the data contained
within the datasets we reviewed. This level of access prevents SSA from ensuring the
integrity of this production data. OMB Circular A-130 requires agencies to implement
the practice of least privilege whereby user access is restricted to the minimum
necessary to perform his or her job; and enforce a separation of duties so that steps in a
critical function are divided among different individuals.15 It also emphasizes the
importance of management controls – such as individual accountability requirements,
separation of duties enforced by access controls, and limitations on the processing

15
  OMB Circular A-130, Management of Federal Information Resources, Appendix III, Security of Federal
Automated Information Resources.



Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                         10
privileges of individuals – to prevent and detect inappropriate or unauthorized
activities.16

The CPMS data used to calculate the numerator for this indicator were not archived and
maintained. We were unable to recalculate the numerator used in the calculation of this
indicator.

As a result of these issues, PwC was unable to validate the accuracy of the reported
indicator results and does not consider the data used to calculate this indicator to be
reliable.

Accuracy of PAR Presentation and Disclosure

The information reported in the PAR related to this indicator was inaccurate, as
indicated in the following observations:
    1. We were unable to determine if the travel formula accurately reflected the
       amount of time judges actually spent traveling. The formula was created in 1972
       and updated in 2003 to remove support staff from the calculation, since they no
       longer travel. However, there was no review to determine whether this
       estimation accurately reflected the actual travel time spent by judges.
    2. The regular and overtime hours used in the denominator included time spent
       working on both SSA and Medicare cases, although the numerator only included
       SSA hearings.
    3. The data sources indicated in the PAR were not accurate. Specifically, one data
       source listed in the PAR, the Travel Report, did not exist. Additionally, two data
       sources were not disclosed in the PAR, including a formula used to estimate the
       total ALJ travel time and the Payroll ODS.

Performance Indicator Meaningfulness

The purpose of the indicator (to measure the number of SSA hearings processed per
workyear) appears meaningful, as it is a measure of productivity of OHA employees.
However, as a result of the findings related to the formula used in the calculation, we do
not consider the performance indicator to be meaningful. Specifically, the following
issues noted above limit the meaningfulness:
    1. The indicator is not consistently measuring the data because the denominator
       includes time spent on Medicare and SSA hearings, while the numerator
       includes only SSA hearings.
    2. We were unable to determine that the travel formula accurately reflected the
       amount of time ALJs spent traveling.




16
   SSA is currently implementing the Standardized Security Profile Project to address the principle of
“least privileged access” for users with access to mainframe datasets.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                                11
Number of SSA Hearings Pending

Indicator Background

The performance indicator measures the number of SSA hearings cases that have not
been decided by an ALJ. When a claimant requests a hearing, the case is entered into
CPMS or HOTS. When a hearing decision is made, the disposition date is entered into
CPMS and the status is set to “closed.” The total number of pending SSA hearings is
the sum of all cases in a status other than “closed” or “temporary transfer.” Cases in
“temporary transfer” are excluded because the case would be counted twice (in the
originating office and the transfer office). The number of pending SSA hearings is
reported as of September 24, 2004 on the Caseload Analysis Report (CAR).

Performance Indicator Calculation
                                                       Sum of all cases in a status other
 Number of SSA Hearings Pending                 =      than “closed” or “temporary
                                                       transfer”

Findings

Internal Controls and Data Reliability

We tested the CPMS datasets used to calculate the indicator and found that one
programmer had the “All” access designation to these datasets. This level of access
allows users to create, delete and modify any of the data contained within the datasets
we reviewed. This level of access prevents SSA from ensuring the integrity of this
production data. OMB Circular A-130 requires agencies to implement the practice of
least privilege whereby user access is restricted to the minimum necessary to perform
his or her job; and enforce a separation of duties so that steps in a critical function are
divided among different individuals.17 It also emphasizes the importance of
management controls – such as individual accountability requirements, separation of
duties enforced by access controls, and limitations on the processing privileges of
individuals – to prevent and detect inappropriate or unauthorized activities.18

The CPMS data used to calculate this indicator was not archived and maintained. We
were unable to recalculate the “Number of SSA Hearings Pending” as reported in the
PAR.

As a result of these issues, we could not conclude that the data used to calculate this
indicator was reliable.

17
  OMB Circular A-130, Management of Federal Information Resources, Appendix III, Security of Federal
Automated Information Resources.
18
   SSA is currently implementing the Standardized Security Profile Project to address the principle of
“least privileged access” for users with access to mainframe datasets.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                                12
Meaningfulness and Accuracy of PAR Presentation and Disclosure

We did not identify any significant issues related to the accuracy of PAR presentation
and disclosure, or meaningfulness of this indicator.

Hearings Decision Accuracy Rate

Indicator Background

To determine the “Hearings Decision Accuracy Rate,” the Office of Quality Assurance
and Performance Assessment (OQA) made a selection from a sample file of 1400
closed cases generated by the OHA Case Control System (OHACCS) to be used in its
review of the hearings process. The sample file, which contains all closed cases, was
downloaded to the Disability Hearings Quality Review System (DHQRS) database. The
samples were stratified by type of decision (allow/deny) and geographic location (by
region). From the sample file of 1400 cases, OQA selected approximately 250 denial
cases and 300 allowance cases. The denial cases were selected from those for which
an appeal was not currently pending, as only those cases considered to be
administratively final were reviewed. The allowance cases included in the review are
those for which OQA was able to obtain both the claim folder and hearing tape. The
claim folders and hearing tapes are maintained at different locations, and OQA was not
always able to obtain both in the month in which the case was selected for review.

Upon receipt by OQA, claim folders and hearing tapes were assigned and sent to the
ALJs completing the reviews, referred to as Reviewing Judges (RJ). When assigning
cases, OQA did not assign RJs to review cases where the hearing was held in their own
region. The RJs assessed the cases and completed Data Collection Forms (DCF) to be
sent back to OQA. The indicator was based on the RJs’ analysis of whether the original
decision was supported by substantial evidence.19 When the completed DCFs were
received by OQA, they were entered into DHQRS.

The data in DHQRS were analyzed and the results published every two years in the
report, “Findings of the Disability Hearings Quality Review Process: ALJ Peer Review
Report.”20 To date, there have been five reports with the last one published in
December 2003. Since actual data for FY 2004 were not available, SSA stated that the
number reported in the 2004 PAR was an estimate based on actual results from the
December 2003 ALJ Peer Review Report.



19
   "Substantial evidence" is defined by SSA in the Hearings, Appeals and Litigation Law Manual
(HALLEX), Section I-3-3-4 “…as that evidence which, although less than a preponderance, nevertheless
is sufficient to convince a reasonable mind of the credibility of a position taken on an issue, when no
evidence on the opposing side clearly compels another finding or conclusion.”
20
     Going forward from FY 2006, the performance indicator results will be provided annually.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                             13
Performance Indicator Calculation

                                                          Number of disability hearing
                                                         decisions (both favorable and
 Hearings Decision Accuracy Rate                =          unfavorable) supported by
                                                              “substantial evidence”
                                                        Total disability hearings reviewed
Findings

Internal Controls and Data Reliability

The hearing data contained in CPMS was not transferred to OHACCS on a consistent
basis. As a result, the OHACCS file used to make the monthly case selections may not
have contained the most current case data. SSA management stated that this issue
would be addressed in the June 2005 release of CPMS, after the end of our fieldwork.

We tested the datasets used to calculated the indicator and found that one DHQRS and
four OHACCS programmers had the “All” access designation to these datasets. This
level of access would allow users to create, delete and modify any of the data contained
within the datasets we reviewed. This level of access prevents SSA from ensuring the
integrity of this production data. OMB Circular A-130 requires agencies to implement
the practice of least privilege whereby user access is restricted to the minimum
necessary to perform his or her job; and enforce a separation of duties so that steps in a
critical function are divided among different individuals.21 It also emphasizes the
importance of management controls – such as individual accountability requirements,
separation of duties enforced by access controls, and limitations on the processing
privileges of individuals – to prevent and detect inappropriate or unauthorized
activities.22

The application used to store RJs’ responses to the hearings review, DHQRS, did not
maintain an audit trail tracking user actions. As a result, management could not review
user actions to identify suspicious activities or inaccurate data entry patterns. OMB
Circular A-123, Management Accountability and Control, states that, “Managers should
exercise appropriate oversight to ensure individuals do not exceed or abuse their
assigned authorities.”23

As a result of these issues, we could not consider the data that was used to calculate
this indicator to be reliable.
21
  OMB Circular A-130, Management of Federal Information Resources, Appendix III, Security of Federal
Automated Information Resources.
22
   SSA is currently implementing the Standardized Security Profile Project to address the principle of
“least privileged access” for users with access to mainframe datasets.
23
     OMB Circular A-123, Appendix II, Establishing Management Controls, June 21, 1995.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                                14
Accuracy of PAR Presentation and Disclosure

The title of the performance indicator, “Hearings Decision Accuracy Rate,” did not
accurately reflect what was being measured. The title suggested that the indicator
reported on the accuracy of hearing decisions; however, hearing decisions supported by
substantial evidence were not necessarily accurate. Accuracy implies precision or
correctness in decision making. The substantial evidence criterion essentially
measures the adequacy of hearing decisions (i.e. was the evidence and documentation
sufficient?). There is another question in the DCF that asks the RJ to describe what
decision they would have made, given the same evidence available for the initial
hearing. This question seems to better address the accuracy of hearing decisions.

Data sources that were used in the calculation of the indicator were not listed in the
PAR. This included DHQRS and OHACCS.

OQA calculates the result of this performance indicator every 2 years. During the years
that an actual result is not available, an estimate is reported in the PAR. The process
used to calculate the estimated result has not been formally documented. SSA has
stated that the figure reported as the estimate was the target for FY 2004, which was
the result from the most recent actual data available (FY 2001 and FY 2002 results).
We believe that a more accurate depiction of the situation would have been to report
this indicator result as “not available.”

Performance Indicator Meaningfulness

As a result of the matters discussed previously in the section “Accuracy of PAR
Presentation and Disclosure,” we do not consider the reported performance indicator to
be a meaningful measure of the achievement of its stated objective. However, we
believe that the indicator can represent a meaningful outcome-based measure of the
adequacy of support for decisions.

General Findings

For all of the performance indicators included in this report, we identified other issues
related to the general controls at the OHA facility in Falls Church, Virginia and the
CPMS and HOTS applications.

During general controls testing, we found that visitors to the OHA facility were not
required to sign-in upon entry. It should be noted that the OHA is located in a
multi-tenant, privately owned building, and so does not have complete control over the
physical security of the building. In addition, there were no guards at the entrance of
the OHA facility. Management did state that security guards are in place throughout the
facility, however during the course fieldwork PwC did not note the presence of any
guards. We also noted that tape back-up procedures for the OHA local systems
environment were not adequately documented. We noted that the current back-up


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                   15
procedures did not include the schedule and frequency of back-ups, what is included in
the back-up, procedures if the back-up fails, the back-up log process, and off-site
procedures. Finally, OHA’s contingency plan was in draft status at the time of our audit.
OHA management was in the process of updating and finalizing the plan to
accommodate the current conditions.

The CPMS and HOTS applications are used to track and calculate performance data for
the following indicators: “Number of SSA Hearings Cases Processed per Workyear
(PPWY),” “Number of SSA Hearings Pending,” and “Hearings Decision Accuracy Rate.”
We identified the following issues with these applications:

1. CPMS:
   • It was not necessary to enter a date of death in CPMS to close a case based on
     death. This created the potential for open cases to be improperly classified as
     processed due to death in CPMS. As a result, the number of processed hearings
     could have been overstated in the PAR.
   • CPMS users had the ability to create duplicate cases. Duplicate cases could
     have resulted in the number of pending cases being overstated in the PAR.24
   • We identified five security and compliance issues in our review of the UNIX
     server on which the CPMS application resides. Two of the conditions were
     contrary to the requirements of the SSA UNIX Risk Model and the other three
     conditions were contrary to existing Government guidelines from NIST and the
     DISA Windows 2000 Security Checklist, version 3.1.11.

2. HOTS:
   • Weaknesses were identified related to the HOTS password and security setting
     requirements. The password weaknesses could allow for unauthorized access to
     HOTS. A detailed list of the password security weaknesses were provided to
     SSA management. Additionally, there was no user ID lockout after invalid
     attempts to sign-on to the applications. This could have allowed unauthorized
     users to repeatedly attempt to log into the applications.
   • SSA student interns had the same access rights as supervisors within HOTS.
     This level of access allows users to read, write, and modify all of the data
     maintained in the HOTS application.
   • HOTS lacked certain basic edit controls that would allow users to create
     duplicate claims, allow certain key dates to be back-dated, and allow closed
     claims to be reopened.
   • HOTS did not have an audit trail.




24
   SSA Management stated that these issues would be addressed in the June 2005 release of CPMS,
after the end of our fieldwork.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                         16
CONCLUSION AND RECOMMENDATIONS
We recommend SSA:

   1. Ensure SSA personnel do not have the ability to directly modify, create or delete
      the data, outside the application used to calculate the results of these indicators.
   2. Ensure all visitors are required to sign in upon entry to restrict visitor access to
      the OHA building.
   3. Enhance existing tape back-up procedures to include the entire back-up and
      recovery process in detail.
   4. Ensure that the OHA contingency plan is complete and approved by
      management.

Specific to the performance indicators, “Number of Appellate Actions Processed,”
“Number of SSA Hearings Cases Processed per Workyear (PPWY),” and “SSA
Hearings Pending” we recommend SSA:

    5. Ensure that the UNIX environment used in the calculation of these indicators is
       configured in compliance with the SSA UNIX Risk Model.
    6. Retain the detailed data used to calculate the performance indicators results that
       are reported in the PAR.

Specific to the performance indicators, “Number of SSA Hearings Cases Processed per
Workyear (PPWY),” “SSA Hearings Pending,” and “Hearings Decision Accuracy Rate”
we recommend SSA:

   7. Require a date of death to be entered into CPMS for cases closed based on
      death restricting the ability to create duplicate cases in CPMS.

Specific to the performance indicator, “Number of Appellate Actions Processed” we
recommend SSA:

   8. Improve PAR disclosure and meaningfulness by:
         • revising the performance indicator title and description to ensure the data
            sources are accurately reflected; and
         • including all elements of the appeals process in the calculation of the
            indicator or disclose the basis for excluding hearings counts from the
            indicator. (BASED UPON AGENCY COMMENTS, THIS
            RECOMMENDATION IS BEING WITHDRAWN.)
   9. Improve internal controls and data reliability by:
         • maintaining documentation that describes how the performance indicator
            goals were established, creating policies and procedures used to prepare
            and report the results of the performance indicators, and maintaining a
            complete audit trail of the transactions and data used to calculate the
            indicator results;


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                17
          •  ensuring that indicator data can be reconciled to the corresponding
             spreadsheets used in the reporting of this indicator; and
          • correcting the indicator calculation to capture processed counts used for
             the ROAR portion of the indicator rather than the number of
             reconsiderations inputs.
   10. Address ACAPS and LOTS application deficiencies (See Appendix D).

Specific to the performance indicator, “Number of SSA Hearings Cases Processed per
Workyear” we recommend SSA:

   11. Improve disclosure in the PAR by disclosing that a travel formula and Brio reports
       are used.
   12. Improve internal controls by:
          • updating the travel formula used to calculate ALJ travel time to reflect
             actual time spent on travel;
          • ensuring the hours used in the calculation reflect only time spent working
             on SSA hearings – not Medicare hearings; and
          • requiring all regions to provide training reports on a monthly basis to
             ensure all time spent on training is included in the indicator number.

Specific to the performance indicator, “Hearings Decision Accuracy Rate” we
recommend SSA:

   13. Improve PAR disclosure by:
          • updating the data sources noted in the PAR to reflect all sources used in
             the indicator calculation, including DHQRS and OHACCS;
          • revising the performance indicator title to clarify that it measures whether
             or not there is substantial evidence for each case reviewed, not accuracy
             of hearing decisions; and
          • reporting accuracy rates available when actual results are not available.
   14. Improve internal controls and data reliability by:
          • ensuring timely and consistent receipt of CPMS cases into OHACCS; and
          • maintaining an audit trail within the DHQRS application that captures the
             user ID or terminal, date and time of the transactions being processed.
             Policies and procedures should be created to review the audit trail for
             inappropriate access to data or processing of transactions.

AGENCY COMMENTS

SSA agreed with 10 of our recommendations and disagreed with 4. For
recommendation 6, SSA disagreed and stated that system capacity and limited
resources would prevent them from full implementation of this recommendation. For
recommendation 8, SSA stated that it could not implement the recommendation
because the performance measure has been eliminated. For recommendation 9, SSA


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)               18
stated that policies and procedures have been developed and were provided to PwC.
For recommendation 11, SSA stated that the travel formula and Brio software do not
need to be reflected in the PAR. The full text of SSA’s comments can be found in
Appendix E.

PWC RESPONSE
In response to comments regarding recommendation 6, one of the objectives of the
GPRA audit is to ensure the accuracy of results reported in the PAR for each of the
indicators under audit. We are willing to discuss any alternate methods the Agency is
considering to ensure that the indicator results are auditable. However, SSA is
responsible for meeting the requirements of OMB Circular A-123, Management
Accountability and Control, which states, "…documentation for transactions,
management controls, and other significant events must be clear and readily available
for examination."25 In addition, although PwC was able to recalculate the results using
summary data from DIODS, we could not consider the data to be reliable as the
Government Accountability Office defines reliability in Assessing the Reliability of
Computer-Processed Data (October 2002) as:

      •   Data are reliable when they are (1) complete (they contain all of the data
          elements and records needed for the engagement) and (2) accurate (they reflect
          the data entered at the source or, if available, in the source documents).

Regarding recommendation 8, we have agreed to withdraw the recommendation since
SSA has decided to eliminate the indicator from the Final FY 2006 Annual Performance
Plan. However, if SSA decides to use this or a similar indicator in the future, issues
relating to PAR disclosure and meaningfulness should be addressed.

Regarding recommendation 9, we continue to believe that internal controls and data
reliability in general should be improved, even though this specific indicator will not be
reported in subsequent PARs. As stated in our report, although SSA management
provided documented policies and procedures to the auditors, the documentation was
not sufficient as it did not accurately describe the process in place during FY 2004 to
record and report the results of the indicator. In addition, all components of the indicator
calculation were not included in the policies and procedures.

We agree with SSA’s response to recommendation 11. In fact, the Agency’s response
supports the intent of our recommendation, which is for the PAR to include a reference
to all key data sources instead of referencing a travel report which does not exist. The
Agency’s response indicates that the travel formula and Brio software are the data
sources for this indicator. As such, we continue to believe that the actual data sources
should be referenced, instead of the non-existent travel report.


25
     OMB Circular A-123, Appendix II, Establishing Management Controls, June 21, 1995.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                19
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – ACAPS and LOTS Application Deficiencies

APPENDIX E – Agency Comments




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)
                                                                            Appendix A
Acronyms
 AC             Appeals Council
 ACAPS          Appeals Council Automated Processing System
 ALJ            Administrative Law Judge
 CAR            Caseload Analysis Report
 CAS            Cost Analysis System
 COOP           Continuity of Operations Plan
 CPMS           Case Processing and Management System
 CPMS MI        Case Processing and Management System Management Information
 DAS            Disability State Agencies
 DBFM           Division of Budget and Financial Management
 DCA            Division of Cost Analysis
 DCF            Data Collection Form
 DDHQ           Disability Hearings Quality Review
 DDS            Disability Determination Services
 DHQRS          Disability Hearings Quality Review System
 DI             Disability Insurance
 DIODS          Disability Operational Datastore
 DISA           Defense Information Security Agency
 FDDS           Federal Disability Determination Services
 FDDS CTS       Federal Disability Determination Services Case Tracking System
 FY             Fiscal Year
 GPRA           Government Performance and Results Act
 HO             Hearing Office
 HOTS           Hearing Office Tracking System
 IWMS           Integrated Work Measurement System
 LOTS           Litigation Overview Tracking System
 MAR            Monthly Analysis Report
 MCS            Modernized Claims System
 MSSICS         Modernized Supplemental Security Income Claims Systems
 MTAS           Mainframe Time and Attendance System
 NDDSS          National Disability Determination Services System
 NIST           National Institutes of Standard and Technology
 OAO            Office of Appellate Operations
 OASI           Old-Age and Survivors Insurance
 ODS            Operational Datastore


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)           A-1
 ODSSIS         Office of Disability and Supplemental Security Income Systems
 OHA            Office of Hearings and Appeals
 OHACCS         Office of Hearings and Appeals Case Control System
 OMB            Office of Management and Budget
 OQA            Office of Quality Assurance
 OSM            Office of Strategic Management
 PAR            Performance and Accountability Report
 PARR           Payroll Analysis and Recap Report
 Payroll ODS    Payroll Operational Datastore
 PCACS          Processing Center Action Control System
 PCMI           Process Center Management Information System
 PICA           Pre-Input Cost Analysis
 PPWY           Processed per Workyear
 RJ             Reviewing Judge
 RO             Regional Office
 ROAR           Recovery of Overpayments, Accounting and Reporting
 RSI            Retirement and Survivors Insurance
 SA             System Access
 SAOR           State Agency Operations Report
 SSA            Social Security Administration
 SSAMIS         SSA Management Information System
 SSI            Supplemental Security Income
 SSN            Social Security Number
 TAMIS          Time and Attendance Management Information System
 TXVI ODS       Title 16 Operational Datastore
 U.S.C.         United States Code




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)       A-2
                                                                            Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, and other reports related
       to SSA GPRA performance and related information systems.
   •   Met with the appropriate SSA personnel to confirm our understanding of each
       individual performance indicator.
   •   Flowcharted the processes. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls within and
       surrounding each of the critical applications to determine whether the tested
       controls were adequate to provide and maintain reliable data to be used when
       measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metric or algorithm of key performance indicators to ensure
       mathematical accuracy.
   •   For those indicators with results that SSA determined using computerized data,
       we assessed the completeness and accuracy of that data to determine the data's
       reliability as it pertains to the objectives of the audit.
   •   Performed a follow-up general computer control review as it relates to the Office
       of Hearings and Appeals.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators being used appear to be valid and appropriate
given our understanding of SSA’s mission, goals, objectives and processes.

We followed all performance audit standards in accordance with generally accepted
government auditing standards. In addition to the steps above, we specifically
performed the following to test the indicators included in this report:


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)             B-1
NUMBER OF APPELLATE ACTIONS PROCESSED

   •   Audited the design and effectiveness of SSA internal controls and the accuracy
       and completeness of the data related to the following areas:
            9 Observed the input of a request for review in the Appeals Council
               Automated Processing System (ACAPS).
            9 Observed the input of a new court case and a court remand in the
               Litigation Overview Tracking System (LOTS).
            9 Performed an application controls audit of ACAPS, LOTS, Recovery of
               Overpayments, Accounting and Reporting, and the Disability Operational
               Datastore (DIODS).
            9 Performed a limited application controls audit of the Integrated Work
               Measurement System (IWMS), and the Processing Center Action Control
               System.
   •   Used a programming specialist to determine the adequacy of the programming
       logic used by SSA to calculate the reconsiderations processed for DIODS,
       IWMS, ACAPS, and LOTS.
   •   Recalculated the summary DIODS data for Fiscal Year (FY) 2004 and compared
       it to the reconsiderations in the State Agency Operations Report reported during
       the year.
   •   Traced data from supporting reports to the indicator calculation total for all data
       sources.

NUMBER OF SSA HEARINGS CASES PROCESSED PER WORKYEAR
(PPWY)

   •   Audited the design and effectiveness of SSA internal controls and the accuracy
       and completeness of the data related to the following areas:
           9 Observed the input of the Hearing Request Date, Request Received Date
              and the Input of Hearing Disposition in the Case Processing and
              Management System (CPMS).
           9 Performed a follow-up general computer control review as it relates to the
              the Office of Hearings and Appeals (OHA).
           9 Performed a follow-up application review of the Hearing Office Tracking
              System (HOTS).
           9 Performed an application controls audit of CPMS.
   •   Used a programming specialist to determine the adequacy of the programming
       logic used by SSA to calculate the hearings processed from CPMS and the Case
       Processing and Management System Management Information (CPMS MI) and
       the time from the Time and Attendance Management Information System.
   •   Reviewed each component of the workyear calculation for completeness and
       accuracy.
   •   Traced data from supporting reports to the spreadsheets used to calculate the
       performance indicator.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)              B-2
NUMBER OF SSA HEARINGS PENDING

   •   Audited the design and effectiveness of SSA internal controls and the accuracy
       and completeness of the data related to the following areas:
           9 Observed the input of the Hearing Request Date and the Request
              Received Date in CPMS.
           9 Performed a follow-up general computer control review as it relates to the
              OHA.
           9 Performed a follow-up application review of HOTS.
           9 Performed an application controls audit of CPMS.
   •   Used a programming specialist to determine the adequacy of the programming
       logic used by SSA to calculate the hearings pending from CPMS and CPMS MI.
   •   Selected forty-five cases from the Modernized Claims System and the
       Modernized Supplemental Security Income Claims System and validated that
       each was in pending status in CPMS.
   •   Combined all regional and national Monthly Analysis Reports and Caseload
       Analysis Reports to verify the total of hearings pending.

HEARINGS DECISION ACCURACY RATE

   •   Audited the design and effectiveness of SSA internal controls and the accuracy
       and completeness of the data related to the following areas:
           9 Observed the input of the Hearing Request Date, Request Received Date
               and the Input of Hearing Disposition in CPMS.
           9 Performed a follow-up general computer control review as it relates to the
               OHA.
           9 Performed a follow-up application review of HOTS.
           9 Performed an application controls audit of CPMS.
           9 Performed a limited application controls audit of the Disability Hearings
               Quality Review System (DHQRS).
   •   Reviewed the process to create the sample file of cases from Office of Hearings
       and Appeals Case Control System, append the file to DHQRS, and select the
       cases to be reviewed.
   •   Selected forty-five cases from DHQRS and reviewed the Data Collection Forms
       to test the accuracy of input.
   •   Used a programming specialist to determine the adequacy of the programming
       logic used by SSA to calculate the accuracy rate.




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)            B-3
                                                                                                                                                              Appendix C
Flowchart of Number of Appellate Actions Processed

                                                                                                                              PCACS
                                               Retirement and
                                             Survivors Insurance
                                            (RSI) reconsiderations
                                                      (A)

                                                                                                                               ROAR



                                             Disability Insurance          Will
                                            (DI) reconsiderations                                                         Federal Disability
                                                                     reconsideration
                                                      (B)                                                                  Determination
                                                                       go to State
                                                                                                       No                 Services (FDDS)
     Initial decision       Request for                                 Disability
                                                                                                                           Case Tracking
       received by       reconsideration                              Determination
                                                                                                                           System (Levy)
         claimant       filed by claimant                            Services (DDS)?
                                                                                                                                                                 Cost Analysis
                                                                                                                                                                 System (CAS)
                                                                                                    National Disability     DIODS (State                       Input spreadsheet
                                                                                        Levy
                                                                                                     Determination              Agency
                                                                           Yes         (State
                                                                                                    Services System        Operations Report
                                                                                       DDS)
                                                                                                        (NDDSS)                (SAOR))
                                                                                                                                                               Performance owner
                                                                                                                                                                  review of the
                                            Supplemental Security                                Title XVI                                                    performance indicator
                                                Income (SSI)          MSSICS                    Operational                    IWMS                                  results
                                             reconsiderations (C)                                Datastore


        Hearing           Request for
        decision        Appeals Council                                                                                                                       Number of Appellate
                                               AC reviews (D)                                                                  ACAPS                           Actions Processed
      received by       (AC) review filed
        claimant          by claimant                                                                                                                           reported in SSA
                                                                                                                                               OHA Workload   Tracking Report/PAR
                                                                                                                                                spreadsheet




      AC decision       Lawsuit filed in
      received by       Federal District     New court cases (E)
        claimant            Court


                                                                                                                               LOTS

                        Federal District
                        Court remands
                                             Court remands (F)
                         case back to
                              AC




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                                                                                                             C-1
Flowchart of Number of Appellate Actions Processed Cont.
                                                           Obtain data for RSI reconsiderations:
                                                           Office of International Operations:
                                                                        RECON8       NONCLM
                                                                        RECON8       NONMED
                                                                        RECON8       OTHER
                                                                        TOT          RECON

                                                           Program Service Center:
                                                                     RECON         NONMED
                                                                                                                                     Input acquired
                                                                     RECON         MISC                                              data into CAS
                                  PCACS                                                                                                  Input
                                                           Obtain data for DI reconsiderations:                                       spreadsheet
                                                           Office of International Operations:
                                                                        RECON8       MEDICAL

                                                           Office Disability Operations:
                                                                      RECON           MEDICAL
                                                                      RECON           MISC
                                                                      RECON           NONCLM
                                                                      RECON           NONMED

                                                                                                                                    Open CAS Input
                                                                    RSI & DI
                                                                                                       RSIDI                         spreadsheet to
                                ROAR OC210                      reconsiderations
                                                                                                  reconsiderations                    automatically
                                   report                      entered into RSIDI
                                                                                                    spreadsheet                     update counts for
                                                                reconsiderations
                                                                                                                                        RSI & DI
                                                                  spreadsheet
                                                                                                                                    reconsiderations             CAS Input
                                                                                                                                                                spreadsheet
             RSI/ DI
         reconsiderations
              (A/B)
                                                                   Calculate
                                                                                                         DI                          Input cumulative                            The cumulative
                                    FDDS                          cumulative
                                 spreadsheet                                                      reconsiderations                  processed counts                            processed count
                                                              processed counts
                                                                                                      + DI/SSI                        into CAS Input                             is compared to
                                                                 for FDDS DI
                                                                                                  reconsiderations                     spreadsheet                              the prior month.
                                                              reconsiderations


                                                                                                                                                                                  Any variation
                                                                        Complete the following calculation to obtain the DSA                                                    more than 10% is
                                                                                                                                               Input acquired                    verified with the
                                                                               number for the CAS Input spreadsheet:
                                               SAOR Report                                                                                     data into CAS                       data source
                              DIODS                                     (Title II Workloads Recon Clearances + Concurrent
                                                                                                                                                   Input                            contact for
                                                                        Workloads Recon Clearances) - Transitional Federal
                                                                                                                                                spreadsheet                     accuracy and an
                                                                        Medicare Recon - Regular Federal Medicare Recon
                                                                                                                                                                                  explanation of
                                                                                                                                                                                  the variance.


                                                                                                                                                                                  Review and
                                                                                                                                                                                approval of CAS
                                                                                                                                                                                     Input
                                  SSA                                                                            Obtain data for                                                spreadsheet by
                SSI          Management              IWMS portion of                  Field Counts                    SSI                    Input acquired                     another analyst.
          reconsiderations    Information             SSAMIS pulls                    spreadsheet               reconsiderations             data into CAS
                (C)             System             reconsideration total                                        cumulative totals          Input spreadsheet
                               (SSAMIS)                                                                            processed.
                                                                                                                                                                              Number of processed
                                                                                                                                                                               counts for appellate
                                                                                                                                                                               actions to the Office
                                                                                                                                                                                    of Strategic
                                                                                                                                                                              Management (OSM)
                                                                                                                                                                                 by 25th of each
                                                                                                                                                                                       month.




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                                                                                                                              C-2
Flowchart of Number of Appellate Actions Processed Cont.

                                 New court cases             Court remands
     AC reviews (D)
                                       (E)                         (F)




          ACAPS

                                                   LOTS




      ACAPS Report

                                               LOTS Report




    ACAPS report sent
      for Associate
     Commissioner
          review.



   Systems uses ACAPS
  report as basis for Kiwi
     report. Kiwi report
   prepared with Division
  of Budget and Financial
   Management (DBFM)
  and Office of Appellate
     Operations (OAO)
            input.




                                                   OAO takes disposition                       Figures released
                                                       figures from Kiwi                      to OHA Executive
                                                                              Figures sent
                             Kiwi Report              (request for review                       Secretariat for    OHA Spreadsheet
                                                                             through OAO                                             To Division of Cost
                                                   dispositions) and LOTS                     executive approval
                                                                             Executives for                                           Analysis (DCA)
                                                    (new court cases and                        and release to
                                                                               approval.
                                                         court remand                              pertinent
                                                    dispositions) reports.                       components.



Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                                                                             C-3
Number of Appellate Actions Processed
• Initial decision received by claimant.
• Request for reconsideration filed by claimant.
• Retirement and Survivors Insurance (RSI) reconsiderations.
           o PCACS.
           o ROAR.
• Disability Insurance reconsiderations.
           o PCACS.
           o ROAR.
           o Will reconsideration go to State Disability Determination Services (DDS)?
                  No – Federal Disability Determination Services (FDDS) Case
                     Tracking System (Levy).
                  Yes – Levy (State DDS).
           o Levy (State DDS).
           o National Disability Determination Services System (NDDSS).
           o DIODS (State Agency Operations Report (SAOR)).
• Supplemental Security Income (SSI) reconsiderations.
           o MSSICS.
           o Title XVI Operational Datastore.
           o IWMS.
• Hearing decision received by claimant.
• Request for Appeals Council (AC) review filed by claimant.
• AC reviews.
           o ACAPS.
• AC decision received by claimant.
• Lawsuit filed in Federal District Court.
           o New court cases.
• Federal District Court remands case back to AC.
           o Court remands.
• LOTS.
• OHA Workload spreadsheet.
• CAS Input spreadsheet.
• Performance owner review of the performance indicator results.
• Number of Appellate Actions Processed reported in SSA Tracking Report/PAR.




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)           C-4
•   (A/B) RSI/DI reconsiderations.
•   PCACS.
           o Obtain data for RSI reconsiderations:
                   Office of International Operations:
                        • RECON8          NONCLM
                        • RECON8          NONMED
                        • RECON8          OTHER
                        • TOT             RECON
                   Program Service Center:
                        • RECON           NONMED
                        • RECON           MISC
           o Obtain data for RSI reconsiderations:
                   Office of International Operations:
                        • RECON8          MEDICAL
                   Office of Disability Operations:
                        • RECON           MEDICAL
                        • RECON           MISC
                        • RECON           NONCLM
                        • RECON           NONMED
           o Input acquired data into CAS Input spreadsheet.
•   ROAR OC210 report.
           o RSI & DI reconsiderations entered into RSIDI reconsiderations
              spreadsheet.
           o RSIDI reconsiderations spreadsheet.
           o Open CAS Input spreadsheet to automatically update counts for RSI & DI
              reconsiderations.
•   FDDS spreadsheet.
           o Calculate cumulative processed counts for FDDS DI reconsiderations.
           o DI reconsiderations plus DI/SSI reconsiderations.
           o Input cumulative processed counts into CAS Input spreadsheet.
•   DIODS.
           o SAOR Report.
           o Complete the following calculation to obtain the Disability State Agencies
              (DSA) number for the CAS Input spreadsheet: (Title II Workloads Recon
              Clearances + Concurrent Workloads Clearances) – Transitional Federal
              Medicare Recon – Regular Federal Medicare Recon.
           o Input acquired data into CAS Input spreadsheet.
•   (C) SSI reconsiderations.
           o SSA Management Information System (SSAMIS).
           o IWMS portion of SSAMIS pulls reconsideration total.
           o Field Counts spreadsheet.
           o Obtain data for SSI reconsiderations cumulative totals processed.
           o Input acquired data into CAS Input spreadsheet.
•   CAS Input spreadsheet.
•   The cumulative processed count is compared to the prior month.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)            C-5
•   Any variation of more than 10 percent is verified with the data source contact for
    accuracy and an explanation of the variance.
•   Review and approval of CAS Input spreadsheet by another analyst.
•   Number of processed counts of appellate actions to the Office of Strategic
    Management by the 25th of each month.
•   (D) AC reviews.
           o ACAPS.
           o ACAPS Report.
           o ACAPS report sent for Associate Commissioner review.
           o Systems uses ACAPS report as basis for Kiwi report. Kiwi report
               prepared with Division of Budget and Financial Management (DBFM) and
               Office of Appellate Operations (OAO) input.
•   (E) New court cases.
           o LOTS.
           o LOTS Report.
•   (F) Court remands.
           o LOTS.
           o LOTS Report.
•   Kiwi report.
•   OAO takes disposition figures from Kiwi (request for review dispositions) and LOTS
    (new court cases and court remand dispositions) reports.
•   Figures sent through OAO Executives for approval.
•   Figures released to OHA Executive Secretariat for executive approval and release to
    pertinent components.
•   OHA Workload spreadsheet.
•   To Division of Cost Analysis (DCA).




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)           C-6
Flowchart of Number of SSA Hearings Cases
Processed per Workyear, Number of SSA
Hearings Pending, Hearings Decision Accuracy
Rate
                   Initial decision
                     received by
                       claimant



                      Request
                   reconsideration            No            End
                          ?


                         Yes

                  Reconsideration
                  decision received
                    by claimant




                      Request
                                              No            End
                      hearing?



                         Yes

                 Input into HOTS/
                   CPMS: When
                request received at
                Hearing Office (HO)


           SSA pending hearings number
           includes all with no disposition
           date in HOTS/CPMS (excludes
             cases in temporary transfer
                        status)

                                                                Dismissed
                        Will
                   Administrative                  No                                        Written
                    Law Judge                                                             decision sent
                   (ALJ) conduct                   No                                      to claimant
                     hearing?                                Pay on Record
                                                                (Expedite
                                                             without hearing)
                         Yes

                   Hearing is held
                    and case is                                                                                                               A
                     explained

                                                         ALJ enters
                                                                                     Clerk enters                Decision letter and
                                                        decision into                                                                  HO database files
                     ALJ makes                                                     disposition date              a copy of the ALJ
                                                      CPMS for SSA                                                                      sent to Regional
                    determination                                                 and mail date into             decision is sent to
                                                     cases and HOTS                                                                     Office (RO) and
                                                                                    HOTS/CPMS                         claimant
                                                    for Medicare cases                                                                    combined in
                                                                                                                                         HOTS/CPMS




                                                   Monthly Activity
             Regional database files                                        Combine MAR for all           MAR posted to the
                                                   Report (MAR)
               sent to OHA and                                              locations to generate         Intranet for ROs to
                                                    produced by
            combined in HOTS/CPMS                                                  the CAR                      review
                                                    HOTS/CPMS


                                                                                        Performance Indicator 3 Calculation:
                                                                                        Number of SSA Hearings Pending,
                                                                      B                Total number of hearings cases with no
                                                                                     disposition date in HOTS/CPMS (excludes
                                                                                         cases in temporary transfer status)


                                                                                                Performance owner
                                                                                             review of the performance
                                                                                                  indicator results

          Note: HOTS was converted to
         CPMS at all sites as of August 1,                                                          Reporting of
                                                                                                    Performance
                       2004                                                                          Indicator 3




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                                                                                  C-7
Flowchart of Number of SSA Hearings Cases
Processed per Workyear, Number of SSA
Hearings Pending, Hearings Decision Accuracy
Rate Cont.
        B




Control workyears
                      Number of SSA
calculated by DCA                           Travel calculated       Training totaled                                                     Monthly Electronic
                          Hearings                                                         Spreadsheet formulas calculate the
  and emailed to                              using travel            from HO/RO                                                         CAS file emailed
                      Processed taken                                                         time spent on SSA hearings:
   OHA/DBFM                                     formula             Training Reports                                                         to DCA
                       from the MAR
     analyst.


                                                                                 (Regular Time + Overtime) - (Leave + Travel + Training)
                                                                                                       2,080*
                                                                                *SSA defines a work year as 2,080 hours = (40 hours * 52 weeks).




                                                                  Run macro to                                                             Pre-Input Cost
   Create OHA
                                Run macro to                    update CAS Input                                                          Analysis (PICA)
 Workload file and                                                                                 Upload PRN file
                              create PRN file for                sheet with data                                                          report updated
agree to Electronic                                                                                   to CAS
                                upload to CAS                      from OHA                                                              with current month
      CAS
                                                                  Workload file                                                                 input




  Check PICA
                      Manually update               Check against
  against OHA                                                             Spreadsheet formulas calculate
                        OHA PPWY                    PICA for Cum.
 Workload file to                                                            Performance Indicator 2:                   Send to Director of
                      Rec_Mo_Cum file                 Receipts,
 ensure proper                                                           Number of SSA Hearings Cases                    DCA for review
                      with figures from             Processed and
    upload of                                                            Processed per Workyear (PPWY)
                            PICA                     Workyears.
   information



                                                                              SSA Hearings Processed                      Director of DCA
                                                                                                                         sends to OSM by
                                                                             SSA Hearings Direct Time                    15th of the month




                                                                                                                            Reporting of
                                                                                                                           Performance
                                                                                                                         Indicator 2 in PAR




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                                                                             C-8
Flowchart of Number of SSA Hearings Cases Processed per
Workyear, Number of SSA Hearings Pending, Hearings Decision
Accuracy Rate Cont.
                           A




                  Office of Disability
                  and Supplemental                                                                             The sample file is
                   Security Income                                                                             downloaded on to
                                                       Division of
                       Systems                                                                                    the Office of
                                                   Disability Hearings
                  (ODSSIS) creates                                                                             Quality Assurance                                                                      Cases are
                                                     Quality (DDHQ)                                                                            Folders for the                When folders are       assigned to
                  an extract file from                                                                         and Performance
                                                   inputs month, year              ODSSIS creates                                            cases selected as               received, they are   Reviewing Judges
                  Office of Hearings                                                                              Assessment
                                                     and number of                  the monthly                                                the sample are                   screened for       (RJ) and data is
                  and Appeals Case                                                                                 server and                                                                        entered into
                                                   cases required for               sample file.                                             requested through                 exclusions and
                   Control System                                                                               appended to the                                                                   the DHQRS case
                                                     sample on SSA                                                                            various contacts.                completeness.
                      (OHACCS)                                                                                 Disability Hearings                                                                 control system.
                                                     mainframe and
                   containing latest                                                                             Quality Review
                                                    notifies ODSSIS.
                    transaction for                                                                            System (DHQRS)
                     each case in                                                                                  database.
                       OHACCS.




                                                     RJs review the                                                                                 After all
                                                       cases and                                                                                information is
                                                   complete the DCF.                   Folders are
                  Folders are mailed                  Two review                     returned to the                                              entered into                Data is analyzed
                                                                                                                                             DHQRS database,                 by DDHQ staff to
                   to the RJs with                      questions                   DDHQ with the              DCF information is                                                                 Results of analysis
                    data collection                    point to the                DCF. The form is              entered into                 DCFs are placed                 compare to data       are reported in
                                                                                                                                                       in                       reported in
                     forms (DCF)                     supported-by-                      reviewed               DHQRS database.               individual residual                 previous          biennial reports.
                       attached.                      substantial-                 for completeness
                                                                                                                                               file folders and              reporting periods.
                                                        evidence                   and consistency.                                             filed by Social
                                                      performance
                                                        indicator.                                                                            Security number.




                                         Biennial Disability
                                         Hearings Quality                Performance Indicator 4 Determined:                     Performance
                                          Review Process                 Hearings Decision Accuracy Rate,                      owner review of                     Reporting of 4
                                           Peer Review                                                                                                             Performance
                                                                          Percent of hearings supported by                     the performance                       Indicator
                                             Reports                                                                           indicator results
                                                                                substantial evidence




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                                                                                                                                               C-9
Number of SSA Hearings Cases Processed per Workyear (PPWY), Number of SSA
Hearings Pending, Hearings Decision Accuracy Rate
• Initial decision received by claimant.
• Request reconsideration?
           o No – End.
           o Yes – Reconsideration decision received by claimant.
• Request hearing?
           o No – End.
           o Yes – Input into HOTS/CPMS when request received at Hearing Office
              (HO).
• SSA hearings pending number includes all with no disposition date in HOTS/CPMS
  (excludes cases in temporary transfer status).
• Will Administrative Law Judge (ALJ) conduct hearing?
           o No
                  Dismissed.
                  Pay on Record (Expedite without hearing).
           o Written decision sent to claimant.
           o Yes – Hearing is held and case is explained.
• ALJ makes determination.
• ALJ enters decision into CPMS for SSA cases and HOTS for Medicare cases.
• Clerk enters disposition date and mail date into HOTS/CPMS.
• Decision letter and a copy of the ALJ’s decision are sent to claimant.
• A.
• HO database files sent to Regional Office and combined in HOTS/CPMS.
• Regional database files sent to OHA and combined in HOTS/CPMS.
• Monthly Activity Report (MAR) produced by HOTS/CPMS.
• Combine MAR for all locations to generate CAR.
• MAR posted to the Intranet for ROs to review.
• B.
• Performance Indicator 3 Calculation: Number of SSA Hearings Pending, Total
  number of hearings cases with no disposition date in HOTS/CPMS (excludes cases
  in temporary transfer status).
• Performance owner review of the performance indicator results.
• Reporting of Performance Indicator 3.
• B.
• Control workyears calculated by DCA and emailed to OHA/DBFM analyst.
• Number of SSA Hearings Processed taken from the MAR.
• Travel calculated using travel formula.
• Training totaled from HO/RO Training Reports.
• Spreadsheet formulas calculate the time spent on SSA hearings:
           o (Regular Time + Overtime) – (Leave + Travel + Training)
                                        2080
              *SSA defines a work year as 2,080 hours = (40 hours * 52 weeks).
• Monthly Electronic CAS file emailed to DCA.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)   C-10
•      Create OHA Workload file and agree to Electronic CAS.
•      Run macro to create PRN1 file for upload to CAS.
•      Run macro to update CAS Input sheet with data from OHA Workload file.
•      Upload PRN file to CAS.
•      Pre-Input Cost Analysis (PICA) report updated with current month input.
•      Check PICA against OHA Workload file to ensure proper upload of information.
•      Manually update OHA PPWY Rec_Mo_Cum file with figures from PICA.
•      Check against PICA for Cum. Receipts, Processed and Workyears.
•      Spreadsheet formulas calculate Performance Indicator 2: Number of SSA Hearings
       Cases Processed per Workyear (PPWY).

                o         SSA Hearings Processed
                          SSA Hearings Direct Time

•      Send to Director of DCA for review.
•      Director of DCA sends to OSM by 15th of the month.
•      Reporting of Performance Indicator 2 in PAR.
•      A.
•      Office of Disability and Supplemental Security Income Systems (ODSSIS) creates
       an extract file from Office of Hearings and Appeals Case Control System (OHACCS)
       containing the latest transaction for each case in OHACCS.
•      Division of Disability Hearings Quality (DDHQ) inputs month, year and number of
       cases required for sample on SSA mainframe and notifies ODSSIS.
•      ODSSIS creates the monthly sample file.
•      The sample file is downloaded onto the Office of Quality Assurance and
       Performance Assessment server and appended to the Disability Hearings Quality
       Review System (DHQRS) database.
•      Folders for the cases selected as the sample are requested through various
       contacts.
•      When folders are received, they are screened for exclusions and completeness.
•      Cases are assigned to Reviewing Judges (RJ) and data are entered into the
       DHQRS case control system.
•      Folders are mailed to the RJs with Data Collection Forms (DCF) attached.
•      RJs review the cases and complete the DCF. Two questions point to the supported-
       by-substantial-evidence performance indicator.
•      Folders are returned to the DDHQ with the DCF. The form is reviewed for
       completeness and consistency.
•      DCF information is entered into DHQRS database.
•      After all information is entered into DHQRS database, DCFs are placed in individual
       residual file folders and filed Social Security number.
•      Data are analyzed by DDHQ staff to compare to data reported in previous reporting
       periods.
•      Results of analysis are reported in biennial reports.
1
    A PRN file is a flat file.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)             C-11
•   Biennial Disability Hearings Quality Review Process Peer Review Reports.
•   Performance Indicator 4 Determined: Hearings Decision Accuracy Rate, Percent of
    hearings supported by substantial evidence.
•   Performance owner review of the performance indicator results.
•   Reporting of Performance Indicator




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)       C-12
                                                                            Appendix D
ACAPS and LOTS Application Deficiencies
Specific to Recommendation 10, SSA should address ACAPS and LOTS application
deficiencies by taking the following actions:

•   Document change control procedures for both ACAPS and LOTS;
•   Strengthen password parameters in ACAPS and LOTS to require encryption of the
    passwords, lockout of users accounts after a set number of failed attempts, the use
    of alphanumeric passwords and passwords with a minimum of eight characters;
•   Strengthen the ACAPS and LOTS applications to include security incident reports for
    tracking inappropriate access attempts to ACAPS and LOTS;
•   Generate error logs for ACAPS and LOTS activities to ensure timely identification
    and follow-up of data entry errors;
•   Maintain an audit trail that captures the user ID or terminal, as well as date and time
    of the transaction being processed through LOTS. Policies and procedures should
    be created to review the audit trail for inappropriate access to data or processing of
    transactions;
•   Ensure that the Windows 2000 environment that supports the ACAPS application is
    configured to be in compliance with the SSA Windows 2000 Risk Model;
•   Create a control log for the CPMS and ACAPS interface to ensure that all case data
    are completely and accurately transferred to ACAPS;
•   Require ACAPS users to enter all identifying fields to prevent duplicate cases;
•   Require SSNs entered to be nine digits to ensure case information in LOTS is
    complete and accurate; and,
•   Monitor case type errors in LOTS on a consistent basis to ensure case information in
    LOTS is complete and accurate.




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)
                                                                            Appendix E
Agency Comments




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)
                                         SOCIAL SECURITY

MEMORANDUM

Date:      January 13, 2006                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Performance Indicator Audit: Hearings and
           Appeals Process" (A-15-05-15113) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                    E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "PERFORMANCE INDICATOR AUDIT: HEARINGS AND APPEALS
PROCESS" (A-15-05-15113)

Thank you for the opportunity to review the above subject audit report.

Our responses to the specific recommendations are as follows:

Recommendation 1

Ensure SSA personnel do not have the ability to directly modify, create or delete the data,
outside the application used to calculate the results of these indicators.

Comment:

We agree. SSA has begun implementing the "access on demand project" that should be fully
implemented in 2009. We suggest that PricewaterhouseCoopers (PwC) should acknowledge this
in their report.

Recommendation 2

Ensure all visitors are required to sign in upon entry to restrict visitor access to the Office of
Hearings and Appeals (OHA) building.

Comment:

We agree. The OHA Headquarters building security could be improved. OHA is working in
conjunction with the Department of Justice to provide security enhancements at the OHA facility
in Falls Church, Virginia to bring the building in compliance with Level IV federal standards.

Recommendation 3

Enhance existing tape back-up procedures to include the entire back-up and recovery process in
detail.

Comment:

We agree. SSA provided documentation of its tape back-up procedures to PwC in May 2005.




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                            E-2
Recommendation 4

Ensure that the OHA contingency plan is complete and approved by management.

Comment:

We agree. OHA will update their Occupant Emergency Plan and Security Action Plan yearly as
required by the Administrative Instructions Manual System guide.

Specific to the performance indicators, “Number of Appellate Actions Processed,” “Number of
SSA Hearings Cases Processed per Workyear (PPWY),” and “SSA Hearings Pending.”

Recommendation 5

Ensure that the UNIX environment used in the calculation of these indicators is configured in
compliance with the SSA UNIX Risk Model.

Comment

We agree. The SSA UNIX Risk Model is updated every six months. The Multi-Platform
Security Branch forwards the risk model to members (administrators) of the UNIX Functional
Workgroup to implement. In addition, we also use a tool called Policy Compliance Manager to
scan and monitor items in the risk model for non-compliance on a regular basis. Contact is made
with the administrator and manager of the UNIX environment to bring the server into
compliance.

Recommendation 6

Retain the detailed data used to calculate the performance indicators results that are reported in
the Performance and Accountability Report (PAR).

Comment:

We disagree. System capacity and the diversion of already limited resources to support such an
activity compel us to disagree with this recommendation. Satisfying this recommendation would
require SSA to preserve and maintain, among other things, data transactions, source code,
multiple versions of software and the operating system in use during the potential audit review
period. Staff would then need to be available to reconstruct all this to support an audit. The
magnitude of such an effort would seriously impede work to implement new information
technology supported processes that support SSA programs and its clients.

PwC has suggested that for some indicators maintaining raw summary data would meet the
needs of its audits, and that it would provide the server capacity to store such data. For some
systems/datastores (Case Processing and Management System (CPMS)/Disability Operations
Datastore (DIODS)), we are sizing data volume for PwC so that they can determine the
appropriate server size. However, it is unclear that this alone will address PwC's needs, and for


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                       E-3
which indicators this is true. Even though this would likely be a limited diversion of SSA
resources, it would be helpful if we had some assurance that this activity will in fact support the
auditor’s needs.

SSA has explained that it is cost-prohibitive to maintain the detail-level data required to
recalculate performance results for a full year and PwC should acknowledge this in their report.
Further, the Office of Management and Budget's Circular A-11, section 230f states "Performance
data need not be perfect to be reliable, particularly if the cost and effort to secure the best
performance data will exceed the value of any data so obtained".

Therefore, since PwC was able to recalculate the results using summary data from DIODS, we
suggest PwC revise their statement in Findings that they could not consider the data reliable.
Also, PwC should acknowledge SSA's proposal to take snapshots of the detail-level pending at
pre-determined times and use those snapshots to verify the accuracy of the summary data.

Specific to the performance indicators, “Number of SSA Hearings Cases Processed per
Workyear (PPWY),” “SSA Hearings Pending,” and “Hearings Decision Accuracy Rate.”

Recommendation 7

Require a date of death to be entered into the CPMS for cases closed based on death restricting
the ability to create duplicate cases in CPMS.

Comment:

We agree. We will ensure that this change is added to the current list of requested CPMS
enhancements.

Specific to the performance indicator, “Number of Appellate Actions Processed.”

Recommendation 8

Improve PAR disclosure and meaningfulness by: a) revising the performance indicator title and
description to ensure the data sources are accurately reflected; and b) including all elements of
the appeals process in the calculation of the indicator or disclose the basis for excluding hearings
counts from the indicator.

Comment:

We disagree. We cannot implement this recommendation since this performance measure has
been eliminated. This performance measure was very problematic because it was made up of
multiple workloads handled by the field, Disability Determination Services, and the Appeals
Council. After executive review, it was decided that the measure did not provide meaningful
management information.




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                       E-4
We suggest that the report indicate that the performance measure, Number of Appellate Actions
Processed, was dropped as a Government Performance and Results Act (GPRA) measure in the
FY 2006 Annual Performance Plan.

Recommendation 9

Improve internal controls and data reliability by: a) maintaining documentation that describes
how the performance indicator goals were established, creating policies and procedures used to
prepare and report the results of the performance indicators, and maintaining a complete audit
trail of the transactions and data used to calculate the indicator results; b) ensuring that indicator
data can be reconciled to the corresponding spreadsheets used in the reporting of this indicator;
and c) correcting the indicator calculation to capture processed counts used for the Recovery of
Overpayments, Accounting and Reporting (ROAR) portion of the indicator rather than the
number of reconsiderations inputs.

Comment:

We disagree. Policies and procedures have been developed and were provided to the auditors.
This should be acknowledged in their draft report. In addition, we suggest that the report
indicate that the performance measure, Number of Appellate Actions Processed, was dropped as
a GPRA measure in the FY 2006 Annual Performance Plan.

Recommendation 10

SSA should address the Appeals Council Automated Processing System (ACAPS) and the
Litigation Overview Tracking System (LOTS) application deficiencies by taking the following
actions: a) document change control procedures for both ACAPS and LOTS;
b) strengthen password parameters in ACAPS and LOTS to require encryption of the passwords,
lockout of users accounts after a set number of failed attempts, the use of alphanumeric
passwords and passwords with a minimum of eight characters;
c) strengthen the ACAPS and LOTS applications to include security incident reports for tracking
inappropriate access attempts to ACAPS and LOTS; d) generate error logs for ACAPS and
LOTS activities to ensure timely identification and follow-up of data entry errors; e) maintain an
audit trail that captures the user ID or terminal, as well as date and time of the transaction being
processed through LOTS. Policies and procedures should be created to review the audit trail for
inappropriate access to data or processing of transactions; f) ensure that the Windows 2000
environment that supports the ACAPS application is configured to be in compliance with the
SSA Windows 2000 Risk Model; g) create a control log for the CPMS and ACAPS interface to
ensure that all case data is completely and accurately transferred to ACAPS; h) require ACAPS
users to enter all identifying fields to prevent duplicate cases; i) require SSNs entered to be nine
digits to ensure case information in LOTS is complete and accurate; and, j) monitor case type
errors in LOTS on a consistent basis to ensure case information in LOTS is complete and
accurate.




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                         E-5
Comment:

We agree. ACAPS and LOTS are old stand-alone systems that will eventually be replaced. In
order to make any changes to those systems, SSA would have to redirect systems resources that
are being used for critical CPMS enhancements. This would have a negative impact on the SSA
hearings workload, so we are only considering operations essential changes to ACAPS and
LOTS at this time. Nonetheless, any future changes will follow the principles of change control
as dictated by the Agency's policies/procedures in change control management. The Intrusion
Protection Team monitors 24/7 with the Harris-Stat tool for violations to the Windows 2000 risk
model. Contact is made with the administrator and manager of the Windows environment to
bring the server into compliance. At the next suitable opportunity, we will ensure that this
system includes appropriate edits for SSN entries.

Specific to the performance indicator, “Number of SSA Hearings Cases Processed per
Workyear.”

Recommendation 11

Improve disclosure in the PAR by disclosing that a travel formula and Brio reports are used.

Comment:

We disagree. The Travel Report mentioned on page 11 of the subject draft report in the section
entitled "Accuracy of PAR Presentation and Disclosure" is not a report or data source. The
travel formula that computes how much Administrative Law Judges spend in travel is
appropriately reflected on page 9 of the Draft Report. This formula is a computation and not a
report and should not be reflected in the PAR as a data source. The Operational Data Store is a
tool that provides payroll users with on-line access to their Payroll Analysis Recap Report
(PARR). BRIO is not a report, but software used to run the PARR. The PARR is listed as a data
source.

Recommendation 12

Improve internal controls by: a) updating the travel formula used to calculate ALJ travel time to
reflect actual time spent on travel; b) ensuring the hours used in the calculation reflect only time
spent working on SSA hearings - not Medicare hearings; and
c) requiring all regions to provide training reports on a monthly basis to ensure all time spent on
training is included in the indicator number.

Comment:

We agree. The travel formula will be revised as part of the Social Security Unified Measurement
System/Social Security Administration Managerial Cost Accountability System pilot once it is
expanded to OHA. All training hours from all of the regions are being captured. Effective with
additional computer enhancements to existing systems (expected no later than January 2006), the
reporting of training hours from all regions will be automated.


Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                        E-6
However, relative to item (b), Medicare time is not included in the PPWY calculation. OHA uses
Standard Time Values (STV) to assign workyears to their various workloads. For each workload,
the STV is multiplied by the processed workload count to determine earned hours. Earned hours
are compared to direct hours worked and any difference is prorated over the workloads. When
calculating the PPWY, the Agency only uses SSA hearings processed counts and SSA hearings
time. Accordingly, that part of the recommendation is already in effect.

Specific to the performance indicator, “Hearings Decision Accuracy Rate.”

Recommendation 13

Improve PAR disclosure by: a) updating the data sources noted in the PAR to reflect all sources
used in the indicator calculation, including the Disability Hearings Quality Review System
(DHQRS) and the Office of Hearings and Appeals Case Control System (OHACCS); b) revising
the performance indicator title to clarify that it measures whether or not there is substantial
evidence for each case reviewed, not accuracy of hearing decisions; and c) reporting accuracy
rates available when actual results are not available.

Comment:

We agree. SSA will update and reflect all data sources used in the indicator calculation. While
we believe that the data definition provides a straightforward disclosure that decision accuracy is
based on substantial evidence, the standard used by most Federal courts to evaluate the accuracy
of decisions, nonetheless we will revise the title to clarify that we measure whether there is
substantial evidence to support the hearing decision. Finally, we will provide a yearly report on
the performance indicator.

Recommendation 14

Improve internal controls and data reliability by: a) ensuring timely and consistent receipt of
CPMS cases into OHACCS; and b) maintaining an audit trail within the DHQRS application that
captures the user identification or terminal, date and time of the transactions being processed.
Policies and procedures should be created to review the audit trail for inappropriate access to
data or processing of transactions.

Comment:

We agree. The problem with the interface between CPMS and OHACCS has been corrected.
We are developing an Electronic Quality Assurance (eQA) system for the Office of Quality
Assurance and Performance Assessment that will maintain an audit trail of user actions.




Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113)                      E-7
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
